VISA CREDIT CARD AGREEMENT
In this Agreement the words "you" and "your" mean each and all of those who agree to be
bound by this Agreement; "Card" means the VISA credit card and any duplicates, renewals,
or substitutions the Credit Union issues to you; "Account" means your VISA credit card line
of credit account with the Credit Union, and "Credit Union" means the Credit Union whose
name appears on this Agreement or anyone to whom the Credit Union transfers this
Agreement.
It is understood and agreed that the Credit Union has appointed CC4MBRS (the "Servicer")
as the Credit Union's agent to assist with the servicing of your Account. As result of such
agreement, it is understood and agreed that the Credit Union may share information
regarding you and your Account with the Servicer from time to time as the Credit Union
deems necessary, in its sole discretion, for the Servicer to perform its obligations to the
Credit Union. Additionally, you may receive communications and disclosures from the
Servicer on the Credit Union's behalf and any and all communications and disclosures from
the Servicer shall be considered authorized from the Credit Union under this Agreement.
1. Using Your Account. If you are approved for an Account, the Credit Union will establish
a line of credit for you and notify you of your credit limit. You agree that your credit limit is
the maximum amount (purchases, cash advances, finance charges, plus "other charges")
that you will have outstanding on your Account at any time. If you are over your credit limit,
you must pay the amount you are over before payments will begin to restore your credit
limit. You may request an increase in your credit limit only by a method acceptable to the
Credit Union. The Credit Union has the right to reduce your credit limit, refuse to make an
advance and/or terminate your Account at any time for any reason not prohibited by law.
2. Using Your Card. You may use your Card to make purchases from merchants and
others who accept VISA Cards. However, you may not use your Card to initiate any type of
electronic gambling transaction through the Internet. A VISA card may not be used for any
illegal transaction(s). Consult your legal counsel to determine the legality of specific online
gambling transactions. If you wish to pay for goods or services over the Internet, you may
be required to provide card member security information before you will be permitted to
complete the transaction. In addition, you may obtain cash advances from the Credit Union
and from other financial institutions that accept VISA Cards, and from some automated teller
machines (ATMs). (Not all ATMs accept VISA Cards.) To obtain cash advances from an
ATM, you must use the Personal Identification Number (PIN) that is issued to you for use
with your Card.
3. Responsibility. You agree to pay all charges (purchases and cash advances) to your
Account that are made by you or anyone whom you authorize to use your Account. You also
agree to pay all finance charges and other charges added to your Account under the terms
of this Agreement or another agreement you made with the Credit Union. If this is a joint
Account, Section 17 below also applies to your Account.
4. Finance Charges. FINANCE CHARGES on your Account are calculated by applying the
applicable monthly Periodic Rate to the average daily balances for Purchases and Cash
Advances. Separate average daily balances are calculated for Purchases and Cash
Advances. Your monthly Periodic Rate and corresponding ANNUAL PERCENTAGE RATE
for Purchases, Balance Transfers and Cash Advances are as set forth in the Account
Opening Disclosure provided to you under separate cover, the terms of which are
incorporated herein by reference.
To get each average daily balance, the daily balances for Purchases and Cash Advances
for the billing cycle are added and the totals are divided by the number of days in the cycle.
To get the daily balance for Cash Advances, new Cash Advances are added to the day's
beginning balance and payments, credits and any unpaid interest or other finance charges
are subtracted. To get the daily balance for Purchases, new Purchases are added to the
day's beginning balance and payments, credits and any unpaid interest or other finance
charges are subtracted; however, new Purchases are not added if you paid the entire New
Balance for Purchases on your last statement by the end of the grace period or if you did
not have a Purchase balance on your last statement.

Cash Advances -The FINANCE CHARGE on Cash Advances is calculated in accordance
with the following method: A Finance charge will be imposed on Cash Advances from the
date made or from the first day in which the Cash Advance is posted to your account,
whichever is later, and will continue to accrue on the average daily balance of such Cash
Advances until the balance is paid in full. There is no grace period on Cash Advances.
Purchases -The FINANCE CHARGE on Purchases is calculated in accordance with the
following method: A FINANCE CHARGE will be imposed on Purchases only if you elect not
to pay the entire New Balance shown on your monthly statement for the previous billing
cycle within twenty five (25) days from the closing date of that statement.
If you elect to pay less than the entire New Balance shown on your previous monthly
statement within that twenty five (25) day period, a Finance Charge will be imposed on the
average daily balance of such Purchases from the previous statement closing date and on
new Purchases from the date of posting to your account during the current billing cycle, and
will continue to accrue until the closing date of the previous statement closing date and on
new Purchases from the date of posting to your account during the current billing cycle, and
will continue to accrue until the closing date of the billing cycle preceding the date on which
the entire New Balance is paid in full or until the date of payment if more than twenty five
(25) days from the closing date.
Balance Transfers – Balance transfers, as permitted by Credit Union from time to time in
Credit Union’s sole discretion, will be treated as Cash Advances for the purpose of all
FINANCE CHARGES.
5. Other Charges. The following other charges (fees) will be added to your Account, as
applicable:
a. Over-the-Credit-Limit Fee: An over-the-limit fee will not be imposed. In the event
you incur charges in amounts which shall cause the account indebtedness to exceed
the authorized credit limit by 1%, you shall pay immediately the amount by which the
total New Balance exceeds such maximum authorized credit.
b. Late Payment Fee: If a payment of at least the amount of the minimum required
payment is not received within five (5) days of the Due Date or cycle whichever
comes first, a late charge in the amount of $25.00 shall be imposed. In no event will
your Late Payment Fee exceed the amount of your minimum payment due.
c. Return Check /Return Pre-Authorized Payments Fee: If you make any payment on
your Account with a check or fraft or through a pre-authorized payment, and that
check, draft or pre-authorized payment is returned to the Credit Union unpaid for any
reason, your Account will be charged a fee equal to the lesser of $25 or the required
minimum payment. In no event will your Return Check/Return Pre-Authorized
Payments Fee exceed the amount of your minimum payment due immediately prior
to the date on which the payment was returned.
d. Card Replacement Fee: In the event any additional or replacement cards are issued
for any reason other than the issuance of a renewal card, a fee in the amount of
$5.00 may be imposed.
e. Collection Costs: Cardholder agrees to pay all costs incurred by issuer in collecting
cardholder’s indebtedness or in enforcing this Agreement, including attorneys’ fees
and costs, as well as those costs, expenses and attorneys’ fees incurred in appellate,
bankruptcy, and post-judgment proceedings, except to the extent such costs, fees, or
expenses are prohibited by law.
f. Balance Consolidation/Convenience Check Stop Payment Fee: $25.00.
g. Rush Mail Fee: (Priority Handling) $25.00.
h. Cash Advance Transaction Fee: A cash advance transaction fee will not be
imposed.

6. Payments. Each month you must pay at least the minimum payment shown on your
statement by the date specified on the statement or no later than twenty-five (25) days from
the statement closing date, whichever is later. If your statement says the payment is "Now
Due," your payment is due no later than twenty-five (25) days from the statement closing
date. You may pay more frequently, pay more than the minimum payment or pay the Total
New Balance in full. If you make extra or larger payments, you are still required to make at
least the minimum payment each month your Account has a balance (other than a credit
balance). The minimum payment is 2% of your Total New Balance, or $10.00, whichever is
greater, plus the amount of any prior minimum payments that you have not made, and any
amount you are over your credit limit. The Credit Union also has the right to demand
immediate payment of any amount by which you are over your credit limit.
7. Payment Allocation. Subject to applicable law, your payments may be applied to what
you owe the Credit Union in any manner the Credit Union chooses.
8. Security Interest. AS A CONDITION OF CREDIT UNION’S OPENING YOUR
ACCOUNT AND YOUR USE OF THIS CARD, YOU HEREBY GRANT TO CREDIT UNION
A SECURITY INTEREST IN ALL SHARES, DEPOSITS AND OTHER FUNDS ON
DEPOSIT WITH CREDIT UNION IN WHICH YOU HAVE AN OWNERSHIP INTEREST
(other than an IRA account where this security interest would cause the loss of taxexempt or tax-deferred status). THE SECURITY INTEREST IS FOR ALL AMOUNTS
OWED TO CREDIT UNION UNDER THE TERMS OF THIS AGREEMENT. IF YOU ARE IN
DEFAULT UNDER ANY TERM OF THIS AGREEMENT, CREDIT UNION SHALL HAVE A
RIGHT TO IMMEDIATELY SEIZE YOUR SHARES, DEPOSITS AND/OR OTHER FUNDS
WITHOUT NOTICE OR DEMAND TO YOU AND TO APPLY SUCH FUNDS TO THE
AMOUNTS OWED TO CREDIT UNION. Collateral securing other loans you have with
Credit Union now or in the future will also secure this loan, except that a dwelling or your
household goods (as defined by the Federal Trade Commission) will not be considered as
security for this Account, notwithstanding anything to the contrary in any other agreement.
9. Default. You will be in default if you fail to make any minimum payment or other required
payment by the date that it is due. You will be in default if you break any promise you make
under this Agreement. You will be in default if you die, file for bankruptcy or become
insolvent, that is, unable to pay your obligations when they become due. You will be in
default if you make any false or misleading statements in any credit application or credit
update. You will also be in default if something happens that the Credit Union believes may
substantially reduce your ability to repay what you owe.
When you are in default, the Credit Union has the right to demand immediate payment of
your full Account balance without giving you notice. If immediate payment is demanded, you
agree to continue paying finance charges, at the periodic rate charged before default, until
what you owe has been paid, and any shares that were given as security for your Account
may be applied towards what you owe.
In the event that any suit is filed against the Credit Union with respect to this Agreement, or
any credit card issued under this Agreement, the suit shall only be brought in the courts of
the state of Florida.
10. Liability for Unauthorized Use-Lost/Stolen Card Notification. You agree to notify us
immediately, orally or in writing at P.O. Box 310136, Tampa, FL 33680 or telephone (866)
839-3409 twenty four (24) hours a day, seven (7) days a week, of the loss, theft, or
unauthorized use of your Credit Card. You may be liable for the unauthorized use of your
Credit Card. You will not be liable for unauthorized use that occurs after you notify us of the
loss, theft, or possible unauthorized use. You will have no liability for unauthorized
purchases made with your credit card, unless you are grossly negligent in the handling of
your card. In any case, your liability will not exceed $50.
11. Changing or Terminating Your Account. The Credit Union may change the terms of
this Agreement from time to time. Notice of any change will be given in accordance with
applicable law. If permitted by law and specified in the notice to you, the change will apply
to your existing Account balance as well as to future transactions.
Either you or the Credit Union may terminate this Agreement at any time, but termination by
you or the Credit Union will not affect your obligation to pay the Account balance plus any
finance and other charges you owe under this Agreement. You are also responsible for all
transactions made to your Account after termination, unless the transactions were
unauthorized.
The Card or Cards you receive remain the property of the Credit Union and you must
recover and surrender to the Credit Union all Cards upon request or upon termination of this
Agreement whether by you or the Credit Union. If and to the extent permitted by applicable
law, the Credit Union has the right to require you to pay your full Account balance at any
time after your Account is terminated, whether it is terminated by you or the Credit Union. If
this is a joint Account, Section 17 of this Agreement also applies to termination of the
account.

12. Credit Information. You authorize the Credit Union to investigate your credit standing
when opening or reviewing your Account. You authorize the Credit Union to disclose
information regarding your Account to credit bureaus and creditors who inquire about your
credit standing. If your account is eligible for emergency cash and/or emergency card
replacement services, and you request such services, you agree that we may provide
personal information about you and your account that is necessary to provide you with the
requested services(s).
13. Merchant Disputes: Returns and Adjustments. The Credit Union is not responsible
for the refusal of any merchant or financial institution to honor your Card. Merchants and
others who honor your Card may give credit for returns or adjustments, and they will do so
by sending the Credit Union a credit slip which will be posted to your Account. If your credits
and payments exceed what you owe the Credit Union, the amount will be applied against
future purchases and cash advances. If the credit balance amount is $1 or more, it will be
refunded upon your written request or automatically after three (3) months.
14. Additional Benefits/Card Enhancements. The Credit Union may from time to time
offer additional services to your Account, such as travel accident insurance, at no additional
cost to you. You understand that the Credit Union is not obligated to offer such services and
may withdraw or change them at any time.
15. Foreign Transactions. Transactions initiated in foreign countries and/or foreign
currencies will be charged to your Account in U.S. Dollars. The conversion rate to dollars will
be (a) a rate selected by Visa from the range of rates available in wholesale currency
markets for the applicable central processing date, which rate may vary from the rate Visa
itself receives, or (b) the government-mandated rate in effect for the applicable central
processing date, in each of the above instances, plus 1%. The conversion rate used on the
date the foreign transaction is processed may differ from the rate that would have been used
on the date of the purchase and/or the transaction posting date.
16. Severability. In the event that any paragraph of this Agreement or portion thereof is
held by a court to be invalid or unenforceable for any reason, the other paragraphs and
portions of the Agreement shall not be invalid or unenforceable and will continue in full force
and effect.
17. Governing Law. This Agreement is governed by the Bylaws of the Credit Union, federal
laws and regulations, and the laws and regulations of the State of Florida, as amended from
time to time.
18. Dispute Resolution. Any disputes regarding this Agreement shall be within the
jurisdiction of the court of the county in which Credit Union’s principal place of doing
business is located. If legal action is necessary to enforce this Agreement or collect any
amounts owing to Credit Union or fees or charges assessed under this Agreement, Credit
Union has the right, subject to applicable law, to payment by you of all attorney’s fees and
costs, including fees on any appeal and any post-judgment actions. You agree that such
legal action may be filed and heard in the county and state in which Credit Union’s principal
place of doing business is located, if allowed by applicable law.
19. Joint Accounts. If this is a joint Account, each person on the Account must sign the
Agreement (by signing on the application). Each of you will be individually and jointly
responsible for paying all amounts owed under this Agreement. This means that the Credit
Union can require any one of you individually to repay the entire amount owed under this
Agreement. Each of you authorizes the other(s) to make purchases or cash advances
individually. Any one of you may terminate the Account and the termination will be effective
as to all of you.
20. Effect of Agreement. This Agreement is the contract which applies to all transactions
on your Account even though the sales, cash advances, credit or other slips you sign or
receive may contain different terms.
21. No Waiver. The Credit Union can delay enforcing any of its rights any number of times
without losing them.
22. Statements and Notices. Statements and notices will be mailed to you at the most
recent address you have given the Credit Union. Notice sent to any one of you will be
considered notice to all.
23. Final Expression. This Agreement is the final expression of the terms and conditions of
this VISA line of credit between you and the Credit Union. This written Agreement may not
be contradicted by evidence of any alleged oral agreement.
24. Copy Received. You acknowledge that you have received a copy of this Agreement.

Revised 03/31/2017

